<html>
<title> - HUMAN RIGHTS IN SOUTHEAST ASIA: A REGIONAL OUTLOOK</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
           HUMAN RIGHTS IN SOUTHEAST ASIA: A REGIONAL OUTLOOK

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON ASIA, THE PACIFIC AND NONPROLIFERATION

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 25, 2019

                               __________

                           Serial No. 116-58

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.Govinfo.gov
                       
                       
                       
                       
                       
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-180 PDF           WASHINGTON : 2019                     
                       
                       
                       
                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey              CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          JOE WILSON, South Carolina
KAREN BASS, California               SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts       TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island        ADAM KINZINGER, Illinois
AMI BERA, California                 LEE ZELDIN, New York
JOAQUIN CASTRO, Texas                JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada                   ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California                 FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota                KEN BUCK, Colorado
COLIN ALLRED, Texas                  RON WRIGHT, Texas
ANDY LEVIN, Michigan                 GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia         TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey           STEVE WATKINS, Kansas
DAVID TRONE, Maryland                MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas

                        
                                     

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
                                 ------                                

         Subcommittee on Asia, the Pacific and NonProliferation

                   BRAD SHERMAN, Chairman, California

DINA TITUS, Nevada                   TED YOHO, Florida, Ranking Member
CHRISSY HOULAHAN, Pennsylvania       SCOTT PERRY, Pennsylvania
GERALD CONNOLLY, Virginia            ANN WAGNER, Missouri
AMI BERA, California                 BRIAN MAST, Florida
ANDY LEVIN. Michigan                 JOHN CURTIS, Utah
ABIGAIL SPANBERGER, Virginia

                                     
                    Don MacDonald, Staff Director
                      
                                     

                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Nguyen, Helen, Wife of Michael Nguyen............................     7
Bencosme, Francisco, Asia Pacific Advocacy Manager, Amnesty 
  International..................................................    22
Huang, Cindy, Vice President of Strategic Outreach, Refugees 
  International..................................................    33
Enos, Olivia, Senior Policy Analyst, Asian Studies Center, 
  Heritage Foundation............................................    42

                                APPENDIX

Hearing Notice...................................................    83
Hearing Minutes..................................................    84
Hearing Attendance...............................................    85

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Sherman.........................................    86

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Lowenthal.    89


           HUMAN RIGHTS IN SOUTHEAST ASIA: A REGIONAL OUTLOOK

                        Thursday, July 25, 2019

                        House of Representatives

                 Subcommittee on Asia, the Pacific and

                            Nonproliferation

                      Committee on Foreign Affairs

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2172 Rayburn House Office Building, Hon. Brad Sherman 
(chairman of the subcommittee) presiding.
    Mr. Sherman. The notes say the subcommittee will come to 
order, but it is already in order. Members present will be 
permitted to submit written statements to be included in the 
official hearing record. Without objection, the hearing record 
will remain open for five calendar days to allow statements, 
questions, extraneous material for the record to be subject to 
the length limitation in the committee rules.
    We will be joined at various points by Members of Congress 
who are not members of the full committee or the subcommittee, 
but have a deep interest in the issues before us. I will 
recognize the ranking member for his 5-minute opening 
statement, after which I will give mine, and then we will hear 
from the witnesses.
    Mr. Yoho. Mr. Chairman, I appreciate the opportunity to do 
this and I appreciate you having this important hearing on 
Human Rights in Southeast Asia: a Regional Outlook.
    Good morning, and I would like to thank Chairman Sherman 
for holding this--I should have started with my notes. I would 
also like to thank our esteemed witnesses for being here this 
morning, including Olivia Enos from the Heritage Foundation, 
Francisco Bencosme from Amnesty International, Dr. Cindy Huang 
from Refugees International, and somebody I have grown to know 
over the course of the last year, Ms. Helen Nguyen, wife of 
Michael Nguyen.
    I would like to especially welcome Mrs. Nguyen whose story 
I have followed for about a year. Her husband Michael has been 
imprisoned in Vietnam since July 2018, and was recently 
sentenced to 20 years in prison for activity against the 
people's government. Ms. Nguyen has been working tirelessly 
with members of this Congress and the past Congress, the 
administration, the consulate in Vietnam to ensure that there 
is justice for her husband.
    And we look forward to continue this work on this important 
matter and this unfortunate incident to return Michael to his 
family, to his wife, and to his four children. My thoughts are 
with you and the family and we are going to continue to work 
with the Vietnamese Government.
    As we continue to witness decaying human rights in the 
region especially in countries like Burma, Cambodia, Thailand, 
some in Vietnam, and the Philippines, it is important that the 
United States and our allies stand up for the rights and 
freedoms of the people of this region. The world is dividing 
like we have never seen before. There has been a stability 
since World War II, if you can believe that with as much 
conflict that is going on, but the democracy that has led 
freedom, democracy, individual rights has been unprecedented in 
the world, but it is being challenged today.
    Hun Sen, Cambodia's strongman Prime Minister has clung to 
power for decades and has no intentions of relinquishing power. 
His regime has used violence, threats, and sham prosecutions to 
attack the peaceful opposition. Hun Sen's relentless 
consolidation of power means that his abuses, which also 
include attacks against NGO's and the shuttering of critical 
media outlets, will only continue left unchallenged.
    Just last week, the Cambodia Democracy Act, which we are 
the sponsors of which I introduced, passed the House with wide 
bipartisan support. It is working its way through the Senate. 
We look forward to being signed into legislation this year. 
This legislation directs the President to impose sanctions on 
high-level government officials who are responsible for 
undermining democracies in Cambodia, including acts that are 
considered serious human rights violations.
    I look forward to seeing this bill move through the Senate 
and eventually become law, and I truly believe that will happen 
this Congress, allowing the U.S. to finally hold Hun Sen and 
his despicable regime accountable.
    Similar abuses have occurred in Burma where an estimated 
one million Rohingya, a predominantly Muslim ethnic minority, 
have fled to neighboring Bangladesh to escape attacks from the 
Burmese military. For decades, there has been allegations of 
human rights violation in Burma, including murder of civilians, 
torture, forced labor, and the enlistment of children soldiers, 
which the International Criminal Court and the U.S. State 
Department have recently begun investigation into.
    Burma has also been classified as a tier 3 country in the 
State Department 2019 Trafficking in Human Persons Report. That 
is slavery, people. That is modern-day slavery and they are 
tier 3, which is the lowest of the low that you can go. And to 
be clear, this is, the lowest tier can be a sign. The human 
rights situation is poor and will continue to worsen unless 
measures are taken to protect the rights of the Burmese people 
and mitigate the devastating violence that has ravaged this 
country.
    Whether it be Vietnam's recently enacted crypto-security 
law that oppresses criticism and opposition of the government--
I think we can thank the Chinese for that--extrajudicial 
killings in the Philippines, or rampant human trafficking in 
Thailand and elsewhere, these abuses are serious and continue 
to threaten the peace and stability of the entire region.
    I look forward to hearing our witnesses today as we explore 
the severity and continuation of human rights abuses in 
Southeast Asia and discuss ways in which the U.S. and our 
allies can stand up for the rights and freedoms of the people 
not just of Southeast Asia, but where this is happening around 
the world. I look forward to this meeting and, Mr. Chairman, I 
thank you again for holding this.
    Mr. Sherman. Thank you, Mr. Yoho. I will be recognizing 
other members who wish to give an opening statement for either 
one or 2 minutes, at their request. I now recognize myself for 
5 minutes.
    In recent years, the United States has really ramped up our 
economic and security arrangements with the countries of 
Southeast Asia, but we must also ramp up our engagement on 
human rights. We played, speaking first of Burma/Myanmar, we 
played, I think, an important role in the return to some form 
of democracy and the return of Aung San Suu Kyi to high post in 
Burma where she, in effect, is the civilian president.
    The response though, unfortunately, has been disappointing 
from even the civilian government in Myanmar/Burma in reaction 
to the Burmese military, 2 years ago, launching what is called 
a military operation, one could call it an ethnic cleansing 
operation, against the Rohingya in Rakhine State.
    I want to commend Bangladesh for hosting up to a million 
refugees. America has stepped forward and provided more 
assistance to those refugees than any other outside country, 
but the maintenance of those refugees in Bangladesh permanently 
is not a solution for Bangladesh. It is not a solution 
acceptable to the American taxpayer and it is certainly not 
acceptable to the Rohingya.
    The United States sometimes by jihadist enemies is branded 
as anti-Muslim. Keep in mind, Muslims have been subject to 
ethnic cleansing and genocide in Bosnia, America responded; 
Kosovo, America responded; and now the Rohingya, where America 
is at least doing far more than the Islamic Conference. The 
Rohingya need to return to their homeland soon. The Burmese 
Government needs to provide them with dignity, safety, and 
citizenship documents.
    We are told, ``Oh, it is just the military. The civilian 
government cannot control them.'' The military is not in 
Bangladesh, so the foreign ministry, a part of the civilian 
government, could be there issuing 700-800,000, a million, 
citizenship documents--whether they be passports or whether 
they be other documents--so people could have that as tangible 
proof that when they get back they will be recognized as 
citizens of Burma/Myanmar. I am a co-sponsor of the BURMA Act 
which would impose sanctions on those responsible for the 
atrocities against the Rohingya.
    Last week, the State Department announced travel 
restrictions on four Burmese military officials. We need to do 
far more. In the past, Congress and the executive branch has 
placed significant restrictions on Burma, but these have been 
lapsed. Keep in mind, so many of the human rights community met 
so often with Aung San Suu Kyi. She asked us or at least was 
positive about a whole panel of economic sanctions. These 
sanctions, she said they would work. They worked. She said they 
would have an effect on the policy in Burma/Myanmar. They did. 
Now how can she tell us not to reinstitute those same economic 
policies that changed the Government of Burma/Myanmar for her 
benefit?
    I have been a little bit--and I want to apologize to my 
colleagues--I am going to go a little long here. I have raised 
the specter of changing the border between Bangladesh and 
Myanmar, because if Burma cannot make people safe they should 
not govern the territory. That was, I know, an extremely 
unlikely and hopefully unnecessary change.
    Bangladesh's Prime Minister, of course, has said they do 
not want to change the border. But keep in mind, Burma/Myanmar, 
only once in this century has an international border been 
changed and that was because of the genocide that was being 
committed by Sudan.
    As to the Philippines, we have designated a major non-NATO 
ally, we provide $150 million of foreign aid annually. But the 
human rights situation there is appalling. Thousands of 
persons--we were told it is OK because they are branded as drug 
offenders' they in some cases may be and in many cases are 
not--have been killed extrajudicially by authorities at pretty 
much the urging of President Duterte. The Philippine Government 
has yet to hold anyone accountable for these extrajudicial 
killings or at least announce a policy that they are opposed to 
them.
    The Philippines must also uphold the rights of indigenous 
persons. I am pleased--I believe we have Beverly Longid in the 
audience. Thank you for being here in the room today. Beverly 
has done so much good work and participated in recent United 
Nations meetings on the issue of indigenous persons.
    Turning to Vietnam, we have with us Helen Nguyen. Thank you 
for coming to testify. Ms. Nguyen is a surgery room nurse for 
highly specialized surgeries in the southern part of the 
megalopolis I represent in the Orange County area. Her husband 
Michael has lived in the United States for decades. He is an 
exemplary citizen, a business owner, and a committed family 
man.
    In July 2018, Michael traveled to Vietnam to visit elderly 
family members. He had regularly visited Vietnam, but on this 
trip he was detained, imprisoned, and sentenced on dubious 
charges to a 12-year term. My colleagues, including Ms. Nguyen 
and Michael Nguyen's Congress member Katie Porter, have 
repeatedly raised this issue and will continue to do so until 
Michael returns home.
    We are on the precipice of perhaps improved relations with 
Vietnam. American companies are looking for places to do 
business other than China. We are the natural geopolitical 
alternative to China in that region of the world. Vietnam 
should care about its image in the United States. Vietnam is 
posed to benefit from closer ties to the United States. Human 
rights is important to America, and it is time to bring Michael 
Nguyen home.
    Now, our witnesses will speak to these issues after we hear 
from any member who wishes to give a short opening statement. 
That being the case, I want to recognize Katie Porter from 
California to introduce our first witness, so then I will 
introduce the rest.
    Ms. Porter. Chairman Sherman, thank you for holding this 
important hearing and for providing the opportunity for my 
constituent Helen Nguyen to share her family's story. Helen's 
husband Michael Nguyen has been detained in Vietnam for over a 
year for allegedly acting against the government. Michael's 
absence has devastated his family. His wife, Helen, and their 
four young daughters who are now struggling each day without 
him, constantly agonizing over when or if they will see him 
again.
    For the past year, Helen has been a single mom. Michael 
largely took care of the kids before he was detained. And as a 
single mom of four kids myself, I know and can see exactly how 
strong Helen is. I also know how hard this is for her and that 
the human harms that Michael's continued detention are creating 
for Helen and for their four beautiful daughters. Helen is 
working sixty to eighty hours a week now as a surgical nurse 
and another 180 hours on call every 2 weeks just to be able to 
make ends meet while she is juggling child care and 
transportation for her kids.
    She has shared with me the personal stories of how her kids 
are really struggling with the loss of their dad, with being 
unable to communicate and talk with him, and the challenges 
that they are facing that no child should have to feel. Michael 
was a devoted father and husband and a member of our Orange 
County community.
    And I want a better relationship with Vietnam, but stories 
like the one that Helen is going to share with you all today 
are a real impediment to moving that relationship forward.
    Helen, you have my word that I will continue to advocate 
for Michael's rapid return to the United States and to 
reunification with your family. Michael is my constituent. 
Michael is an American citizen and I will be tireless on his 
behalf and on the behalf of your family. I look forward to 
hearing your story.
    Mr. Sherman. I will now introduce the other three witnesses 
and then we will hear from Ms. Nguyen and the other witnesses.
    Francisco Bencosme is the Asia Pacific Advocacy Manager at 
Amnesty International. He previously served as professional 
staff member on the Senate Foreign Relations Committee, the 
second most prestigious committee in the Congress dedicated to 
Foreign Affairs. Francisco will focus on human rights in the 
Philippines, but, given his background, is available to answer 
questions on all of the Southeast Asia countries that we are 
focused on.
    Cindy Huang is Vice President of Strategic Outreach at 
Refugees international. She previously held senior positions at 
the Millennium Challenge Corporation and the State Department's 
Bureau of Conflict and Stabilization Operations. She holds a 
Ph.D. in Anthropology from the University of California 
Berkeley. And last week, Cindy was in Bangladesh and she will 
provide us with important information about the Rohingya 
situation but is also qualified to deal with the other 
countries that we are that we are focused on here.
    Finally, Olivia Enos is a Senior Policy Analyst with the 
Asian Studies Center at the Heritage Foundation. She focuses on 
human rights and national security challenges in Asia and she 
will deal with all of the issues that we face in this hearing. 
So with that I look forward to hearing from all of the 
witnesses, but I especially would like to hear Helen's story. 
Please proceed.

       STATEMENT OF HELEN NGUYEN, WIFE OF MICHAEL NGUYEN

    Ms. Nguyen. My name is Helen Nguyen. I am a U.S. citizen 
and I have been residing in Orange County, California for over 
37 years. For 19 years I have been working at the University of 
California Medical Center and Kaiser Hospital as a floor nurse 
and as a surgical registered nurse. Michael Phuong Nguyen and I 
have been married since 2002 and we have four daughters 
together.
    I have served medical missions in Mexico and local Orange 
County since 2004. In 2016, I started to serve surgical 
missionary in Vietnam helping misfortunate children with a 
cleft lip and cleft palate. I also play an active role in my 
community and churches. Over a year, I say goodbye to my 
husband and I wish him a great vacation in Hong Kong and 
Vietnam. I expect to greet him on his flight home 3 weeks 
later, but I did not expect that our initial goodbye would be 
final one.
    I was devastated to find out through social media that he 
was detained by the Vietnamese Government on July 7th, 2018 for 
investigation of Article 109 which is activity against the 
people government. This shocking to my family is happen 
overwhelming at times.
    Sometimes at work I am assisting in a complex surgery 
receiving phone call from psychologist from the school, 
unexpected outbursts, crying at school. They need comfort but I 
cannot be there. I have to choose between my patient and my 
family. Of course, with the title of registered nurse behind my 
name I had to advocate for my patients who are defensive laying 
on a surgical operating room table with their chest open for 
open heart surgery or their belly is open for the kidney 
transplant. Definitely I had to advocate for them. But, 
eventually, I have to get back to the school to talk to them.
    On June 24th he was sentenced for 12 years imprisonment in 
Vietnam, a life learning to cope with loss and still nothing 
could ever prepare me to the loss of my own family. Just 12 
months ago, Michael Phuong was my husband, the father of my 
four daughters; now he is gone. Imagine the emptiness, the pain 
one feels when they have lost someone they truly loved. Imagine 
the confusion and the frustration for the children who parent 1 
day disappear. These are the struggle shared by all the family 
torn apart by the actions of foreign government.
    My husband like any other American in prison overseas have 
been denied the due process that every person is entitled to 
under international law. The Government of United States, a 
country found on principles of individual rights and liberties, 
should do everything possible to obtain Michael's release. The 
United Nations, a pioneer of international human rights law, 
should insist that Vietnam and all United Nations member States 
abide by the universal declarations of human rights and other 
human rights convention and treaties.
    I, my family, would like Michael returned back to us as 
soon as possible. The Members of Congress, the State 
Department, the Senate, the U.S. consulate are my family's 
lifeline, so please help us to get my husband and the father of 
my four daughters back. Thank you.
    [The prepared statement of Ms. Nguyen follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    
    Mr. Sherman. Thank you. So often we hear about human rights 
in statistics as a policy matter. Ms. Nguyen, you have brought 
it home and I think all of us are absolutely dedicated to the 
immediate return of your husband.
    With that we will go on to our next witness.

STATEMENT OF FRANCISCO BENCOSME, ASIA PACIFIC ADVOCACY MANAGER, 
                     AMNESTY INTERNATIONAL

    Mr. Bencosme. Chairman Sherman, Ranking Member Yoho, and 
members of the subcommittee, thank you for inviting me to 
testify on this very important topic.
    On July 1st, while many of us were looking forward to 
spending July 4th with our families, the Philippine National 
Police raided a home of a suspected drug user and killed 3-
year-old Kateleen Myca Ulpina during an antidrug operation in 
Razil Province. Myca would have been four on July 31st. Myca 
became the latest casualty of Philippine President Duterte's 
war on drugs which has killed thousands over the past 3 years.
    Last month, we came out with a new report on the 
Philippines titled, ``They Just Kill,'' a quote from one of the 
victims of the so-called war on drugs. I would like to submit 
the executive summary of the report for the record.
    In towns and cities across the Philippines, the so-called 
war on drugs continues. In the 3-years since President Duterte 
took office, thousands of poor people suspected of using or 
selling drugs or otherwise linked to drugs have been killed by 
police and unknown armed persons. While during the first year 
of Duterte's tenure as President these killings were fairly 
well documented they often go unreported now, contributing to a 
perilous normalization of extrajudicial executions, police 
abuses, erosion of the rule of law, and victimization of the 
poor in the country.
    According to the Philippine National Police figures, at 
least 6,600 drug personalities were killed in police antidrug, 
an average of six a day. Amid constant excitement from the 
highest levels of governments, thousands of other drug related 
killings have been committed by unknown armed persons, at least 
some of whom have links to the police.
    Despite international condemnation, the Duterte 
administration remains defiant. In fact, the President warned 
in early 2019 that the second half of his 6-year term will only 
be harsher, stating that ``the last 3 years of my term will be 
the most dangerous for people into drugs.''
    The deliberate and systematic nature of the killings which 
appear to have been conducted as part of a government 
orchestrated attack against poor people suspected of using or 
selling drugs is why Amnesty International has repeatedly said 
that they may amount to crimes against humanity. These 
extrajudicial executions in the Philippines have resulted in a 
high level of impunity in the country which is also one of the 
main regional trends we see throughout Southeast Asia.
    A real accountability vacuum exists in Southeast Asia, 
especially when it comes to abuses committed by security 
forces. Each failure to investigate or bring those responsible 
to account reinforces the confidence of perpetrators that they 
are indeed above the law and can act with impunity.
    To date, there has been no meaningful accountability at the 
national level for the thousands of executions that have been 
carried out over the past 3 years. Since President Duterte took 
office and launched his antidrug campaign, just one case of 
extrajudicial killing among thousands has been brought to 
justice.
    Impunity also reigns supreme in Myanmar where the military 
has committed some of the gravest crimes under international 
law and particularly against Rohingya in Rakhine State and in 
Kachin and Shan States in northern Myanmar. A U.N. fact finding 
mission has called for the investigation and prosecution of 
crimes against humanity or crimes in genocide.
    The prospect of meaningful justice and accountability in 
Myanmar is currently almost nonexistent as the Myanmar military 
still operates independent of civilian oversight and retains 
control of its own judicial processes. To date, only seven 
soldiers are known to have been investigated and convicted for 
the crimes against the Rohingya following a Reuters 
investigation into the massacre of ten men and boys in Inn Din 
village. All seven have now been released.
    Fresh violations in Rakhine State, where Amnesty 
International has documented military war crimes against 
civilians from all communities since the start of this year and 
continuing violations in northern Myanmar, highlight the 
institutionalized and systematic nature of military abuse as 
well as the consequences of ongoing impunity.
    The second trend we are seeing is a growing climate of 
attack on human rights defenders. Attacks on activists, 
journalists, and human rights defenders have only flourished 
and intensified, making the realization of human rights in each 
of these countries all the more challenging. In the 
Philippines, human rights defenders, particularly women, are 
under attack. Senator Leila de Lima, President Duterte's most 
vocal critic, is enduring her third year of arbitrary detention 
on politically motivated charges after seeking to carry out a 
Senate investigation of drug related killings.
    Journalist Maria Ressa who had published in-depth reports 
on human rights violations committed in the so-called war on 
drugs, faces at least nine politically motivated lawsuits. 
Christina Palabay of the Philippines human rights organization 
Karapatan is at risk after receiving a text message from an 
unidentified person that she would be killed later this year. 
There has been numerous death threats and members of the 
organization Karapatan who have been killed. Even yesterday, we 
received reports of another human rights lawyer who was 
murdered. There is an urgent need, particularly in the context 
of a rising number of extrajudicial killings and other human 
rights violations, to make this a priority.
    Earlier this year in Indonesia, I met a human rights 
defender Novel Baswedan who was fighting anticorruption in 
Indonesia when 2 years ago he was the subject of a vile acid 
attack which was thrown in his face. At the time of the 
incident he was investigating a high-profile case that could 
have possibly implicated the highest level of law enforcement. 
Since then there has not been anyone held accountable for the 
attack on him, setting back anticorruption efforts in 
Indonesia.
    It reminded me also of human rights activist Minur, one of 
the most famous Indonesian human rights activists who spent his 
life trying to make Indonesia a more free and humane place. 
Fifteen years after his assassination justice has not been 
serviced. There is yet to be full accountability for all of 
those allegedly involved.
    In Vietnam, Amnesty International has identified 128 
prisoner of conscience languishing in jails, the number of 
which has gone up a third since we last reported it last year. 
Ten percent of these cases against those jailed stem from 
comments made on social media platforms such as Facebook.
    The final trend that I will mention is that abusers in the 
region have hidden behind the mask of democracy. Elections have 
not been a panacea for human rights and for freedom for the 
people of Southeast Asia. The Thai elections that occurred in 
March of this year were marred by severe restrictions on 
freedom of expression and assembly including the dissolution of 
an opposition party, media censorship, legal threats, and 
criminal charges against candidates and peaceful protesters who 
brought out irregularities in the elections.
    Over a year after Malaysia witnessed its first change in 
government in 60 years, there was hope for a positive human 
rights transformation. However, the rise of opposition voices 
and response to the elections have contributed to the retention 
of repressive laws like the Sedition Act and backtracking on 
ICERD and accession to the ICC.
    In Cambodia, Prime Minister Hun Sen's party won the general 
elections last year having used legislation and the judiciary 
to effectively eliminate any meaningful opposition and shut 
down dozens of media outlets in the lead-up to the vote. 
Without a concerted effort by the United States and 
international community to strengthen human rights protections 
in Southeast Asia, the hardliners who loom large in the region 
are set to continue abusing rights and shattering human lives 
without consequences. Thank you.
    [The prepared statement of Mr. Bencosme follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sherman. Thank you. We will now hear from Dr. Huang.

STATEMENT OF CINDY HUANG, VICE PRESIDENT OF STRATEGIC OUTREACH, 
                     REFUGEES INTERNATIONAL

    Ms. Huang. Thank you. Chairman Sherman and distinguished 
members of the subcommittee, I am honored to be here today to 
discuss the situation of the Rohingya people, a long persecuted 
Muslim minority in Myanmar.
    On August 25th, 2017, the Myanmar military began a campaign 
of mass violence that led more than 700,000 Rohingya to flee to 
Bangladesh. By September 5th, Refugees International reported 
that the military was responsible for crimes against humanity, 
a conclusion later echoed by a U.N. expert group and many 
others.
    Crimes against humanity do not emerge overnight. Waves of 
violence and displacement over decades reflect Myanmar's 
systematic campaign to persecute and exclude the Rohingya. Last 
week, I visited the camps in Bangladesh where three themes 
emerged. First, refugees want to return to their homes in 
Myanmar's Rakhine State where 500-600,000 Rohingya remain. But 
the conditions there are actually getting worse. Fighting 
between an ethnic Rakhine armed group and the military has led 
to crackdowns and an internet blackout since late June. This is 
a warning sign of potential atrocities and is hampering 
humanitarian relief in Rohingya and other communities.
    126,000 Rohingya live in camps for internally displaced 
people that are essentially open-air prisons. The Myanmar 
Government has closed some, but with only superficial changes. 
For example, moving people to structures next to the camps 
without improving their freedom to move or access to 
livelihoods.
    The most fundamental challenge that the chairman recognized 
remains the denial of citizenship to Rohingya. The Myanmar 
Government continues a documentation process that is 
irredeemably flawed because it is based on the 1982 citizenship 
law that requires Rohingya to renounce their identity as a 
distinct ethnic group. Given the authorities' characterization 
of the Rohingya as ``Bengali immigrants,'' it is no surprise 
the Rohingya have little to no confidence that the process 
could lead to equal rights and full citizenship.
    Earlier this year, Refugees International Advocates spoke 
with Noor Jahan, a 70-year-old Rohingya grandmother whose house 
was burned to the ground in August 2017. She then moved to four 
different villages in Rakhine. She described security forces 
coming almost every night to the villages taking men for forced 
labor or women to be sexually assaulted.
    After fleeing to Bangladesh, she says she can finally sleep 
at night. This leads me to the second theme. Humanitarian 
conditions are improving in Bangladesh where more than a 
million Rohingya have sought safety, but more progress is 
needed. I saw how monsoon season poses access and safety 
challenges and how some food, health, nutrition, and protection 
needs remain unmet, especially among women and girls.
    As displacement continues, there is increasing need for 
education, skills development and livelihoods for refugees and 
their host communities. I saw home gardens, small shops, 
training programs that are a testament of the potential for the 
Rohingya to contribute to the local economy. In the immediate 
term, we are very concerned about Bangladesh's plan to relocate 
a hundred thousand Rohingya to Bhasan Char, a small island in 
the Bay of Bengal. In light of unanswered questions on safety, 
services, and movement to and from the island, the government 
should refrain from relocating Rohingya there.
    Third and finally, I heard that Rohingya are looking to the 
United States for our leadership. We recommend that the U.S. 
forge a three-pillar plan spearheaded by a high-level envoy 
committed to sustained diplomatic engagement. The first pillar 
is increasing international pressure on Myanmar toward justice, 
accountability, and conditions for return. This would include 
the U.S. making a determination based on its 2018 report as to 
whether the abuses amount to crimes against humanity and 
genocide. And while we do welcome the recent travel sanctions 
on four military leaders, the U.S. should impose financial 
sanctions on military officials and military-owned enterprises.
    Congress should continue to pursue the bipartisan BURMA Act 
which includes sanctions and limits on security assistance, and 
the U.S. should lead a diplomatic effort to press for an ad hoc 
tribunal or referral to the international criminal court and 
implementation of the Rakhine Advisory Commission's 
recommendations. The second pillar is ensuring Rohingya 
participation throughout the response in Bangladesh and in all 
regional and global forums.
    The third pillar is for the U.S. to maintain and increase 
its support for Bangladesh and lead dialog toward policy shifts 
on freedom of movement, education, and livelihoods for 
refugees. By pursuing this plan, America can advance Rohingya 
rights, promote regional stability, and send a critical message 
about our values and our priorities. Thank you so much.
    [The prepared statement of Ms. Huang follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Sherman. Thank you.
    And no one in Burma/Myanmar should think that the solution 
is bigger and nicer refugee camps in Bangladesh. The solution 
is for people to go back to their homes.
    Ms. Enos.

STATEMENT OF OLIVIA ENOS, SENIOR POLICY ANALYST, ASIAN STUDIES 
                  CENTER, HERITAGE FOUNDATION

    Ms. Enos. Chairman and distinguished members of the 
subcommittee, the Trump administration inaugurated the Free and 
Open Indo-Pacific Strategy in 2017. There are several notable 
features of the Indo-Pacific strategy including that it 
identifies South Asia, especially India, as falling under the 
purview of U.S. strategy toward Asia.
    The second most notable feature of the strategy are the two 
modifiers affixed to it, both of which relate to promoting 
values. The Indo-Pacific Strategy makes explicit commitments to 
promoting human rights, democracy, and freedom. As the strategy 
has taken shape, however, only the security and to some extent 
the economic aspects of U.S. commitments in the Indo-Pacific 
materialized; the values component did not.
    In Southeast Asia, the U.S. has the opportunity to turn its 
rhetorical commitments to values into reality. There are few 
countries in Asia with worse human rights track records than 
Burma or Cambodia. These two countries provide an excellent 
opportunity for the administration to put rhetorical 
commitments to the test.
    Throughout the remainder of my testimony, I want to take 
stock of what the U.S. has done so far in Cambodia and Burma, 
then I want to discuss how the U.S. can demonstrate its 
commitments to values in the Indo-Pacific by prioritizing the 
promotion of human rights in both countries.
    First, Cambodia. It is difficult to describe Cambodia as a 
democracy today. July 2018 elections, neither free nor fair, 
solidified Cambodia's descent into one-party rule. Sham 2018 
elections came on the heels of the Cambodian Supreme Court's 
decision to dissolve the main opposition Cambodia National 
Rescue Party, CNRP, in November 2017, and the opposition's 
dissolution happened right after the arrest of opposition 
leader Kem Sokha in September 2017. He remains under house 
arrest today.
    In addition to political upheaval, concerns have deepened 
regarding China's influence in Cambodia. Recent reports 
indicate that China signed a secret naval base sharing 
agreement that gives China exclusive rights to part of the 
Cambodian naval installation on the Gulf of Thailand. The 
alleged base sharing agreement could amplify the threat that 
China poses to freedom of navigation in the South China Sea.
    While the U.S. responded to Kem Sokha's arrest and the 
dissolving of the CNRP with strong statements and eventually by 
imposing travel restrictions on Cambodian Government officials, 
it has done little to respond after July 2018 elections. The 
U.S. Government promised that there would be follow-on actions, 
presumably sanctions, but now more than a year after failed 
2018 elections, no further sanctions have been issued. The U.S. 
should view Cambodia as a battleground for values, perhaps even 
as a litmus test for whether Southeast Asia is turning more 
toward democracy or authoritarianism.
    Now I want to turn to Burma. Horrific events of August 2017 
resulted in the displacement of approximately 750,000 of 
Burma's Muslim minority Rohingya. The United Nations Fact 
Finding Mission Report found evidence that genocide, crimes 
against humanity, and war crimes took place. Conservative 
estimates suggest that more than 10,000 Rohingya were killed 
with many more women and girls sexually abused or raped. There 
were even horrifying reports of mothers having their babies 
torn from their arms and thrown into the fire right before 
their eyes.
    In spite of overwhelming evidence documenting the genocide 
and several reputable institutions including the U.S. Holocaust 
Memorial Museum corroborating, the U.S. Government has not 
issued a determination on atrocities committed against the 
Rohingya. This is in spite of the fact that the Secretary of 
State has the authority to issue a genocide determination at 
any point in time.
    In fairness, the U.S. has already provided $494 million in 
aid, making it the top provider of humanitarian assistance to 
Burma and Bangladesh. The U.S. also already issued Global 
Magnitsky sanctions against some members of the Burmese 
military, and just last week imposed travel restrictions on 
others including Senior General Min Aung Hlaing. The U.S. 
Government, however, stopped short of financially sanctioning 
Min Aung Hlaing and some of the other military officials who 
bear primary responsibility for atrocities.
    In the face of such severe crimes, I would point the 
distinguished members of this subcommittee to my written 
statements submitted for the record which has additional 
recommendations, but for now I will offer five. The U.S. 
Government should, first, appoint an interagency coordinator 
responsible for promoting human rights and values in the Indo-
Pacific Strategy.
    Second, it should sanction Hun Sen and other party cadres 
for undermining democracy in Cambodia. Third, it should create 
and convene an emergency meeting of the Cambodia contact group 
comprised of the parties to the 1991 Paris Peace Agreement who 
have an obligation to hold the country accountable if democracy 
falters. Fourth, they should financially sanction senior 
members of the Burmese military, particularly Min Aung Hlaing, 
for the crimes that they committed against Rohingya. And fifth, 
the U.S. Government should make an official, public legal 
determination on crimes committed against Rohingya.
    The U.S. has intermittently viewed human rights as a luxury 
issue to be raised when all other diplomatic issues are 
addressed. But this is not the most strategic way to respond to 
human rights challenges in Asia. The U.S. should take these and 
other steps to demonstrate its tangible commitment to 
preserving and promoting human rights in the Indo-Pacific. 
Thank you.
    [The prepared statement of Ms. Enos follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Sherman. Thank you, all witnesses, for your testimony. 
I will now recognize the gentlelady from Pennsylvania for 5 
minutes, and then we will go on to Mrs. Wagner.
    Ms. Houlahan. Thank you very much to all of you guys for 
your testimony today. I very much appreciate your insight. My 
questions are for Dr. Huang. I have had the opportunity to be 
in Burma, or Myanmar, a couple of times within the last decade 
or two and experienced and seen kind of firsthand what you are 
talking about.
    My questions have to do though with what is happening in 
the camps particularly and some of the concerns I have 
specifically for women and girls and the conditions that they 
are in--sexual assault, a lot of other issues that are very 
alarming to me--and I was wondering if you could give us any 
guidance of what could be done to be more helpful in that area, 
what we can do to be more helpful in that area.
    Ms. Huang. Thank you so much for the question. And I do 
also want to reaffirm Chairman Sherman's comment at the outset 
that ultimately the sustainable solution is repatriation and 
conditions for return; unfortunately, these do not exist today.
    And so moving to the camps, yes, it was really a 
devastating situation and there continue to be, according to 
the United Nations, almost 7,000 women who remain extremely 
vulnerable to sexual and gender-based violence. And so some 
areas--and Refugees International released a report last year 
with a set of recommendations on what more we can do.
    So, first and foremost, is to continue to resource the SGBV 
and other response that is happening in the camps. And right 
now the limitation is not the number of structures but, really, 
the capacity, the human capacity, the trained midwives, the 
staffing, and also the referral pathways, so that when someone 
comes with an issue that they are able to be referred to a 
variety of services whether their health, legal, or other.
    Second, I think, you know, some of the recent trouble that 
women have been having has been around the fact that they are 
volunteering with NGO's or able to engage in small activities. 
And so, I think there the response is we must continue to 
provide those opportunities for women, but also that to have a 
holistic view and make sure that the entire family has a way to 
engage.
    And so, I think with these measures, and then obviously on 
just the diplomatic front to continue keeping an eye on the 
situation, continuing the congressional delegations so that 
these issues remain elevated.
    Ms. Houlahan. Thank you. And I have a second question as 
well for you. I am also, coincidentally, a daughter of a 
refugee myself, and my dad really raised me to believe in the 
power and importance of education. In the camps themselves, is 
there any opportunity for education of any form for the 
children or adults?
    Ms. Huang. Right. Recently, the Bangladesh Government 
approved the first few levels of a learning framework for 
children. It is still an informal education, so there is a 
lot--they are able to access some. One of the things that I 
heard in the camps last week is that, you know, most children 
are only getting about 2 hours of instruction a day and that is 
not due to any regulation. That is a space constraint, you 
know, they are putting several shifts of kids into the school.
    So I think to address this we should continue to push for a 
learning framework that can lead to certification. And I heard 
from refugees that there is a lot of interest in getting the 
Myanmar curriculum approved for use in Bangladesh, and the 
reason is people want to learn a language because they do 
anticipate returning home. I do think it is really, it seems so 
practical and basic, but space is a big constraint.
    And I want to recognize that Bangladesh has a high 
population density so space is not easy to find, but there are 
other ways. I think some additional space for health clinic and 
education centers would be helpful, and they are also exploring 
the opportunity to create two-floor structures which would also 
help to relieve some constraints.
    Ms. Houlahan. Thank you. And my very last question with my 
remaining 52 seconds, also for you, Doctor, is are they any--
you talked a little bit briefly, I think, about job prospects 
or opportunities for work. What kinds of opportunities are 
there? Is there also anything that we can be doing to be more 
helpful there as well?
    Ms. Huang. Right now, the work opportunities are limited to 
cash for work, so refugees who help pave the roads or build 
structures in the camps, but there are some training programs. 
For example, I got to visit a workshop where women are learning 
how to sew, so that they can potentially do more tailoring both 
for themselves and potentially for some work opportunities.
    I think that is an area where again, unfortunately, due to 
the continuing conditions in Myanmar that we should continue to 
engage on. And we have just learned from global experience, 
especially in the last 3 years, that when refugees are given 
that opportunity to contribute, anywhere in the world, they 
help drive local growth and that also can really assist with 
moving from the unsustainable year on year humanitarian aid 
model to an opportunity for people to live with dignity and 
self-reliance.
    Ms. Houlahan. Thank you very much. My time has run out, I 
yield back.
    Mr. Sherman. Thank you. We will now recognize the 
gentlelady from Missouri.
    Mrs. Wagner. I want to thank the chairman and the ranking 
member for organizing this important hearing and caring so much 
about this issue as we all do on Foreign Affairs and certainly 
in the Asia Pacific Subcommittee.
    As co-chair of the congressional ASEAN Caucus, I understand 
that Southeast Asian countries are critical U.S. partners. But 
I remain deeply, deeply troubled by reports of serious human 
rights abuses in the Philippines, and Vietnam in particular, 
and by ongoing genocide, genocide against Rohingya Muslims.
    The United States must hold its friends and allies to the 
same high standard it holds itself. In the Philippines, Duterte 
has used his war on drugs to justify rampant human rights 
abuses including these what he calls extrajudicial killings and 
the imprisonment of opposition figures. I am especially 
concerned about the plight of the indigenous peoples in the 
Philippines.
    In Mindanao, which has been under martial law since May 
2017, the Duterte administration has committed these 
extrajudicial illegal killings, illegal arrests, and attacks on 
indigenous schools set up in partnership with NGO's. Mr. 
Bencosme, how can the United States work with the international 
community to protect indigenous peoples in the Philippines?
    Mr. Bencosme. Yes, thank you so much for that question. I 
think it is really incumbent on the United States to work with 
like-minded countries to raise this at the highest levels 
diplomatically. I think the fact that there is constant 
harassment of indigenous people as well as other human rights 
defenders in the Philippines is part of a larger trend where 
President Duterte sort of attacks most of his critics. Anything 
that is sort of not seen in the line with his agenda he either 
imposes, most recently, sedition charges against or tries to 
sort of incriminate them through the media or through various 
other tactics.
    I think the United States has a very important relationship 
with the Philippines and that provides leverage for us to be 
able to raise these at the highest level. The fact that we do 
not--we just recently got an assistant secretary for East Asia. 
We have an ambassador who is now going to another post. We do 
not have an assistant secretary for DRL--are all areas where we 
need to have the vacancies and sort of full-time senior staff 
to be able to raise these issues at the highest levels.
    Mrs. Wagner. I could not agree more. I understand that 
China is financing--they call extractive development projects, 
which basically means kicking people off and pillaging their 
land in the indigenous lands in the Philippines. Mr. Bencosme, 
what is China's role in shoring up the Duterte administration?
    Mr. Bencosme. Yes, so the Chinese and President Duterte 
have a schizophrenic relationship as well in that particularly 
with relation to the South China Sea area that has been of, you 
know, intense interest of the subcommittee, what we have seen 
is China playing both sides of the peace process. What we have 
seen is China playing a role in which obviously disregards for 
human rights issues in the region and where it sort of funds a 
lot of the----
    Mrs. Wagner. And pillaging their land and their minerals 
and the things that the indigenous people have as assets and--
--
    Mr. Bencosme. Right. I mean and so this is where President 
Duterte who talks a lot about national sovereignty is unwilling 
to----
    Mrs. Wagner. Right, stand up.
    Mr. Bencosme [continuing]. Really stand up and care about 
human rights or his own people inside his own country. And so, 
it is really incumbent upon the United States to raise----
    Mrs. Wagner. In my limited time, thank you very much.
    Dr. Huang, Burma refuses to establish conditions for 
Rohingya refugees living in exile in Bangladesh to return to 
their homes, as we have discussed here. As a result, I 
understand that aid providers are beginning to shift toward 
longer term strategies, although Bangladesh has made it clear 
that Rohingya settlements on its territory are temporary. Since 
there are no signs that it is safe for Rohingya to return to 
Burma in the foreseeable future, what are the long-term 
prospects for the Rohingya in Bangladesh?
    Ms. Huang. Yes, and just to affirm again as you said that 
Myanmar is not creating the conditions of return.
    Mrs. Wagner. Correct.
    Ms. Huang. And so I do think, and I think people, 
responders on the ground recognize that it is important to 
transition the response from, you know, to be sitting idle and 
only be receiving food handouts day after day, you know, that 
is really the recipe for a lost generation. And so, I think 
some of the transition that needs to happen, we spoke a little 
bit about education.
    Mrs. Wagner. Right.
    Ms. Huang. So right now it is just informal, but if we 
could make it more formal, I think that would give people hope. 
Then also to improve the living conditions, so both around 
space and the quality of housing.
    Mrs. Wagner. That they are not so temporary.
    Ms. Huang. Right. And then yes, and finally, I think, for 
those livelihoods opportunities, I understand that that has to 
be incremental, you know, but to create opportunities for 
people to fish, to create small, you know, tailoring items so 
that they can become more self-reliant. And again, we have seen 
in other places in the world that this is a more sustainable 
and dignified----
    Mrs. Wagner. And we know that they want to return home, but 
we are going to have to look at some kind of long-term 
prospects. My time has expired and I thank the chairman for his 
indulgence and I yield back.
    Mr. Sherman. It has been brought to my attention that Mr. 
Levin has been here, or got here early in the hearing, and I 
will recognize him for 5 minutes.
    Mr. Levin. Thank you, Mr. Chairman. I want to followup on 
my colleague from Missouri's interest in the Rohingya 
situation.
    Dr. Huang, what aspects of American aid and other 
international efforts to the Rohingya in Bangladesh are working 
well in this difficult situation?
    Ms. Huang. Yes, I do feel we truly need to commend 
Bangladesh, the international community, especially the United 
States as the largest donor for the response. I mean it really 
boggles the mind to think about 700,000 people coming in a span 
of 2 months. And the fact that there has not been a major 
disease outbreak, for example, is really a sign.
    I think in the future people will be learning lessons about 
how you can mount a rapid--it was not perfect for sure, but I 
think the basics around getting people food distributions, you 
know, shelters in the immediate term, there have been successes 
there.
    Mr. Levin. And how easy or difficult is it for NGO's to 
assist Rohingya refugees in Bangladesh and what more can the 
Government of Bangladesh as strained as the situation is for 
them to improve that situation?
    Ms. Huang. Yes, for a long time, Refugees International has 
been calling for the government to create a clear and 
consistent process for NGO registration because some have 
experienced delays and hiccups. I think clear processes around 
registration and project approval so that people understand 
what the parameters are. Of course, we want that to be a wider 
set of parameters----
    Mr. Levin. Yes.
    Ms. Huang [continuing]. So more services can be provided as 
well.
    Mr. Levin. And can you speak to the situation of the five 
to six hundred thousand Rohingya still living in Myanmar, 
including the 120,000 living in camps for internally displaced 
persons?
    Ms. Huang. Yes. The conditions are extremely dire and they 
are not improving. You know, with the fighting between the 
Rakhine and the military there has just been further crackdowns 
and loss of humanitarian access. In particular, in the 
internally displaced persons' camps the situation, despite 
other rhetoric, are really getting worse not better. For 
example, you know, we hear reports of people who are, as I 
mentioned, kind of moved to a space just next to the camp and 
said, you know, ``OK, you are no longer in a camp.'' But they 
have no increased access to livelihoods, ability to move, 
ability to see their family that they are not with, so it is 
extremely troubling.
    Mr. Levin. And who actually has access to those places? 
What outside groups are there, if any? You say we get reports, 
from whom?
    Ms. Huang. Right. Right now, it is extremely limited. My 
understanding is that primarily it is the U.N. agencies such as 
WFP who do have access, and I think one step forward knowing 
that Myanmar is not prepared to take more dramatic steps is to 
increase access of NGO's, organizations like Amnesty 
International, so that we can have a better understanding of 
what is happening.
    Mr. Levin. Thank you. All right, I want to move on quickly 
to accountability for the perpetrators of this crisis.
    Mr. Bencosme, if I am saying that right, on November 22d, 
2017, then Secretary of State Rex Tillerson stated that the 
situation in northern Rakhine State constitutes ethnic 
cleansing against the Rohingya. A State Department report 
released on September 24th, 2018, laid out a compelling case 
for crimes against humanity committed by the Burmese military 
against the Rohingya while stopping short of a legal 
determination.
    Should the U.S. Government make such a determination? And 
if it did, what would the impact be?
    Mr. Bencosme. Absolutely. So we have been calling 
consistently for the United States to make a legal 
determination. The implication of such a determination is that, 
one, it would be a rallying cry for the international community 
to provide more humanitarian assistance. Second, it would set 
the foundation for future criminal accountability, particularly 
if the United States signals to other international bodies 
that, you know, whether credible investigations of genocide, 
crimes against humanity, or war crimes were committed within 
Myanmar----
    Mr. Levin. And last week's action imposing visa bans 
against four leaders of the military, how significant was that 
for--it if was?
    Mr. Bencosme. So the fact that Min Aung Hlaing was named as 
a grave human rights violator was significant, but the JADE Act 
which is still in place, already imposes visa restrictions on 
all of these officials. So it was really a public shaming 
technique, and our opinion is that they need to go further. 
There needs to be real criminal accountability. There needs to 
be real financial assistance. And there needs to be a legal 
determination.
    Mr. Levin. OK, thank you.
    Mr. Chairman, let me conclude by thanking Mr. Bencosme and 
Amnesty for your work in support of my Burma Political 
Prisoners Assistance Act, and I am looking forward to getting 
that through the full House soon.
    Thank you, Mr. Chairman. I yield back.
    Mr. Sherman. Thank you. We have a few more people to ask 
questions here. I know that we have not asked Ms. Nguyen 
anything, but I think several of us will. I certainly will.
    At this point, I will recognize the ranking member, Mr. 
Yoho.
    Mr. Yoho. Thank you, Mr. Chairman. I appreciate the panel 
being here.
    Ms. Nguyen, we will start with you. We followed that case 
pretty closely. There was a lot of interest here in Congress, a 
lot of members, different congressional districts around the 
country were involved in that and it started last Congress. And 
the situation of your husband, Michael, do you feel that he 
went through a fair process in Vietnam for his trial?
    Ms. Nguyen. I was not there for the trial, so I would not 
be able to comment for that.
    Mr. Yoho. OK. I will not go too much into it on a public 
platform. I guess the last time you have gotten word he is 
doing fair? OK?
    Ms. Nguyen. Well, he is doing well in detention center 
right now, according to the message that I get from the U.S. 
consulate.
    Mr. Yoho. OK. I will talk to you more in private and we can 
discuss more about that.
    I want to move on to things that I hear over and over 
again. Dr. Huang, you were talking about the situation you 
mentioned in the refugee camps. Obviously, they are less than 
adequate and children are only getting education twice a day, 
if that, and I am sure that is not 7 days a week, that is 
sporadic; is that correct?
    Ms. Huang. Yes, 2 hours a day, right, because people are 
going in different shifts.
    Mr. Yoho. Right.
    Ms. Huang. Yes, because they are going in different shifts.
    Mr. Yoho. And so we look at just that, in that is just with 
the Rohingyas we are talking about, right?
    Ms. Huang. Yes.
    Mr. Yoho. And I know this meeting is dealing with Southeast 
Asia, but if we look around the world the amount of refugees 
and then we look in our Western Hemisphere, where we have got 
the largest exodus of people out of a country that we have ever 
seen, and you add that all together, we are probably pushing 80 
million people, 70 to 80 million people around the world that 
are in refugee camps. And if there is not order in a society, 
order with education, the things that we have all done that we 
have grown up over the last couple hundred years, we are 
creating a hotbed of just chaos coming if we do not solve these 
problems.
    And so my question, you two are NGO's, right, so you are 
not directly involved so much in policy, the implementation of 
policies.
    Ms. Enos, you help direct policy. One of the questions I 
have is as we see things unraveling, we see competition of 
democracies or alternatives to democracies, socialism with 
Chinese characteristics, we have to decide as democratic 
nations or nations that, you know, a republic that has a 
democratic process, we have to decide who we are doing business 
with because our foreign policy has to change.
    If it does not change, what I have seen--I have been here 7 
years--I just see more division, more division, and we have 
more refugees. I propose, and I want to hear your thoughts on 
this, that we change our policy not just here in our country, 
but with the EU and like-minded countries to change how we 
trade with nations.
    Cambodia has claimed to be a democracy, but Hun Sen has 
bastardized that word. It is anything but a democracy. We have 
met with Sam Rainsy. We have met with other people from there 
from the CNRP, but yet we are still doing trade with them. And 
I can look at several countries in Latin America, other 
countries that we are doing trade with, and if we really value 
these positions and these beliefs that we have had in this 
country that other Western democracies practice, I want to know 
how we get away from trading with these countries.
    Are we bold enough as nations that believe in democracies, 
liberties, and freedom to say, ``Until you change what you are 
doing, we are not trading with you?'' Between us and the EU, if 
we use just Cambodia we account for 65 percent of that 
country's trade. I want to know why we do not change that and 
just say go to elsewhere, we are not trading with you.
    And I think if we stick together as like-minded countries, 
those countries will come around without me telling them what 
to do. They are going to have to make that decision internally. 
What are your thoughts on that?
    Ms. Enos. Thank you for asking me about that. As you 
mentioned, the EU has already temporarily suspended everything 
but arms trade status for Cambodia and is currently suspending 
that permanently and----
    Mr. Yoho. Did you say everything but arms?
    Ms. Enos. Everything but arms, that is right. The EBA.
    Mr. Yoho. So they are trading arms with Cambodia?
    Ms. Enos. Yes. It is the EBA trade agreement and framework. 
And so that is currently temporarily suspended, and then there 
is a chance in 12 months from I think about February or March 
that that will be permanently revoked. The EU is currently 
undertaking a process where they would consider that. And at 
the same time, U.S. Congress has the Cambodia Trade Act where 
we are considering whether the generalized system of 
preferences needs to be reevaluated for Cambodia.
    While I think it would be really wise to look at and 
investigate whether or not Cambodia merits GSP preferences over 
the long term, I do fear that doing such a broad-based sort of 
trade sanction may do more harm to the Cambodian people than it 
does to the Cambodian Government. And so, I think we need to be 
careful about the types of policy solutions that we recommend.
    This is one of the reasons why Heritage has been very vocal 
in terms of advocating for the use of Global Magnitsky 
sanctions, which would enable us to go against Hun Sen directly 
and other party cadres who are directly responsible for 
undermining democracy there.
    Mr. Yoho. Well, and I just want to let you know that the 
Cambodia Democracy Act as you know passed here.
    Ms. Enos. Of course.
    Mr. Yoho. We are working it through the Senate and we look 
forward to having that signed this year. So it is another tool 
that we can put on a despotic leader of a nation that should 
not be there. He should put his people ahead of his own 
personal pleasure or wealth.
    Mr. Chairman, I yield back.
    Mr. Sherman. I now recognize the gentlewoman from Nevada.
    Ms. Titus. Thank you, Mr. Chairman. I will continue kind of 
that line of questioning.
    You know, in the past, the U.S. has often overlooked civil 
rights abuses in countries when we are trying to have alliances 
that support our national security. And now that seems to be 
the case in Southeast Asia. You mentioned, Ms. Enos, about the 
problems in the Indo-Pacific Strategy. Our strategy is getting 
more specific on the security aspects and there are some 
economic things that have been done, but it is pretty silent on 
what the human rights aspects are.
    We have declared Vietnam as a key partner because we want 
their help in a free and open relationship to kind of counter 
the Chinese influence in the area. The Cambodian situation is 
maybe a little bit different. But what can we be doing, all 
three of you, to kind of step up our attempts to balance 
support for human rights with the need to counter Chinese 
influence? And do you think this administration is doing enough 
of that?
    Ms. Enos. I will take that first. So I think that the 
administration has made a lot of rhetorical commitments through 
the Indo-Pacific Strategy to human rights, but we have not seen 
the actual strategy itself materialize. And I think that there 
is, not just in this administration but in several preceding 
administrations, an unnatural divorce between national security 
and national interest priorities and human rights.
    When I think in reality, adopting policies that advance 
human rights principles have the potential to advance U.S. 
national interests as well. And so, I think we need to do a 
better job of articulating what that looks like.
    Ms. Titus. We have not even seen the full report and we do 
not even know who is in charge, I believe, who is responsible 
for articulating this kind of policy. I mean we have seen it in 
Latin America. You see it in Saudi Arabia. We just do not--you 
are right. We have not married the two.
    Doctor, would you add to that or?
    Ms. Huang. I will limit my thoughts to Myanmar, but I think 
that is a great case example, and I think that there are always 
many interests to balance. But in the case of Myanmar and, you 
know, potentially others, we are talking about the most serious 
crimes that can be committed.
    So I think some of the sanctions that have been discussed, 
for example, new sanctions that could be placed on high-level 
senior officials, that could be placed or reenacted on 
military-owned enterprises that, you know, we do--we must 
continue to stand for the facts on the ground and the fact that 
there is the possibility for greater accountability and justice 
in this situation, and likely others.
    Mr. Bencosme. I will add that I am not sure how you can 
have a free and open Indo-Pacific without free societies and 
ensuring that everyone within the region has the human rights 
that they deserve.
    Last year, Congress, through bipartisan and bicameral 
means, passed the Asia Reassurance Initiative which Section 4 
focused on human rights and good governance, making sure that 
there is oversight on implementation of those provisions 
particularly on helping out human rights defenders, making sure 
that civil society in the region has robust funding and 
support, making sure that there is exchanges among civil 
society so that there are regional lessons learned being 
exchanged through the different human rights activists in the 
regions.
    All of those, I think, are a couple of fantastic low-
hanging fruit that the State Department could implement. But 
unfortunately, we have not seen any of that come to fruition.
    Ms. Titus. We see a lot of concern about a rapper in 
Sweden, but not some of these other people who are held in 
places in Asia. Thank you. I will yield back.
    Mr. Sherman. Thank you. The gentleman from Ohio is 
recognized for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. I appreciate that. And 
this is for any members of the panel. We sometimes hear the 
argument that if we press ASEAN countries too hard on human 
rights, China will come in, fill the power vacuum, and advance 
its interests. Unfortunately, I think at least to a limited 
extent there is validity in that point of view. Nonetheless, I 
think we should push human rights and human decency as much as 
possible all over the globe, and I would just like to maybe go 
down the line if you could comment on that and maybe start down 
there. Thank you.
    Ms. Enos. That is an excellent question. I think that there 
has been a lot of focus and concern on the extent to which 
China can influence countries in Southeast Asia and that 
concern of course is merited. But I think that the reality is, 
is that all countries in Southeast Asia are going to 
economically engage with both the U.S. and China. And they are 
not going to like it if they are pressed to choose, to be 
totally frank.
    I think where we should express concern is when there is 
this military cooperation similar to the base-sharing agreement 
that we see with Cambodia, the news reports emerging just this 
past week about some of the military cooperation that is there. 
But all that to say countries in Southeast Asia are going to 
engage with China regardless of whether we press them on human 
rights.
    And one of the distinguishing factors of U.S. engagement in 
Asia, historically, through our alliance relationships and 
otherwise, has been the promotion and commitment to freedom, 
democracy, human rights and values. And I think that should 
remain an enduring part of U.S. strategy.
    Mr. Chabot. Thank you very much.
    Ms. Huang. The only thing I would add is that it is 
important for America to lead, but not act alone. And so, 
therefore, I think we have to double down on our partnerships 
with the EU, with the United Nations, with other countries in 
the region. I think when you add all of that up, there is a lot 
more progress that can be made and engagement that can be 
deepened in the region.
    Mr. Chabot. Thank you.
    Yes?
    Mr. Bencosme. I wanted to add a specific case in point. I 
think the United States could be well positioned with other 
partners to raise the human rights implications of China's Belt 
and Road Initiative. So as particularly we looked at Vietnam's 
Binh Thuan Province where they received a power station by the 
Chinese and where you saw thousands of locals come out in 
protest because of pollution and environmental issues related 
to the coal and fire plants. And then in March 2019, the 
Vietnamese State audit came out with assessing that there was 
bad pollution as a result of this Chinese power plant.
    Where was the United States raising these human rights 
issues where we could have used human rights to stand with the 
people of Vietnam of this village and part of Vietnam? We 
should use those human rights as a comparative advantage vis-a-
vis China. It is part of our U.S. national security, not 
something that prevents us and paralyzes us from speaking on 
behalf of our values.
    Mr. Chabot. Thank you.
    Did you want to comment? If not, I will just move on.
    Ms. Nguyen. I agree with Francisco here, so I have no 
further comment to anything about it.
    Mr. Chabot. All right. Thank you very much.
    I co-chair the House Freedom of the Press Caucus along with 
our colleague Adam Schiff. Would anyone like to discuss press 
freedom in Southeast Asia, generally, and specifically could 
you discuss whether ASEAN countries are adopting Chinese so-
called sovereign internet tools?
    Mr. Bencosme. I would be happy to. One of the regional 
trends we are seeing is enactment of cybersecurity laws which 
allow for online repression. So we are seeing this in Vietnam 
where they instituted a new cybersecurity law a couple years 
ago. Thailand did the same thing. We have seen the 
criminalization of free speech both online and offline. And so, 
they are very much using the same tools that the Chinese have 
used and sort of using that domestically to crack down on 
protesters.
    We have obviously seen a promotion of online hate speech 
and that is also a very worrying trend. And on the context of 
press freedom, I will just highlight in the context of Myanmar 
we have seen an intense crackdown on freedom of the press. In 
particular, we just saw that recently the Burmese Irawaddy, the 
editor was recently detained and was pressed charges against 
them.
    There was defamation suits against five people for live 
streaming a satirical performance mocking the Myanmar military. 
Ko Ko Gyi was detained in connection with a Facebook post 
critical of the military who is also a founder of a film 
festival in Myanmar. These are all things that the civilian 
government is doing.
    And so, while we need to focus on accountability for the 
Myanmar military, we should not take our foot off the pedal 
with respect to raising human rights abuses with the civilian 
government as well.
    Mr. Chabot. Thank you very much. My time has expired. And I 
want to thank the chair and the ranking member for extending 
the privileges to ask questions in this committee. I appreciate 
it.
    Mr. Sherman. Thank you. With that we will hear from the 
gentlelady from Virginia.
    And, Ms. Nguyen, I will have some questions for you, so 
thank you for your patience. And you may get some questions 
from the lady from Virginia as well.
    Ms. Spanberger. Thank you, Mr. Chair. I would like to first 
thank Ms. Nguyen for being here today and sharing your story. I 
commend your strength through this incredibly difficult time 
and I will continue working with Representative Porter to 
ensure that we see your husband's safe return.
    I had a number of questions related to Burma and the 
rampant human rights abuses occurring there and the devastating 
refugee crisis it has created, but I do believe that our 
witnesses today have given us a lot to think about on this 
topic and certainly more ideas for us to pursue into the 
future, so I will pivot toward the Philippines with my 
question.
    Amnesty International's 2017-18 report on the Philippines 
expressed concern about the ``deliberate, unlawful, and 
widespread killings of thousands of alleged drug offenders,'' 
as well as, ``reports of increased numbers of arbitrary arrests 
and detention and extrajudicial executions of political 
activists.'' Human Rights Watch has also noted that in previous 
years it has ``documented the killing of numerous activist 
peasant leaders and labor organizers.''
    The President of the Philippines, Rodrigo Duterte's allies 
swept the Senate elections in May, and recent polls seem to 
show widespread approval for his policies including detentions 
and extrajudicial killings of drug traffickers. Given these 
human rights abuses, how can the United States incentivize the 
Philippines to move away from these policies when they at least 
appear to be supported by a large portion of the population?
    Mr. Bencosme. Thank you, Congresswoman. You know, it is 
really troubling that there still remains public support for 
the so-called war on drugs. I think that is still irrelevant 
because Philippines made a commitment to abide by international 
human rights obligations.
    And so, I think a couple things that Congress can do first 
is that there is House Resolution 233 which speaks out against 
Philippines human rights abuses, particularly in the context of 
crackdown on human rights defenders like Senator de Lima and 
Maria Ressa. Second, that there was last year introduced a 
Philippines human rights accountability bill that is worth 
reexamining whether it should be introduced into this congress, 
and there is important provisions there that look to law 
enforcement, what type of law enforcement assistance that we 
are providing to make sure that it is not complicit in the 
human rights abuses that is going on with the Philippine 
National Police.
    I think the fact that the extrajudicial killing has not 
been raised at the highest level which starts with our own 
commander-in-chief and the fact that there has been rhetoric 
almost mimicking the same type of drug killings domestically 
and sort of lauding the President Duterte, I think is extremely 
concerning. And so, really, we need to make sure that our 
first--that our House, here, domestically, is in order before 
we have credibility in places like the Philippines.
    Ms. Spanberger. Thank you.
    Would anyone else care to comment on that question?
    Then from a data perspective I would ask, have there been 
any fluctuations, have we witnessed any fluctuations in the 
popular support for Duterte as an individual, as a politician, 
or in his policies? And, if so, are there any specific things 
that we can learn from those circumstances?
    Mr. Bencosme. I think one of the things--we just came out 
with a report last month and one of the main findings was that 
the center of gravity on the killings actually shifted when 
particularly police officers were changed to a different part 
of the Philippines. So it is important to note that we need to 
hold all of those who have been responsible for these killings 
in sort of either condemning these killings or not stopping 
them to account.
    And so, really getting at the level of impunity, I think, 
is at the core of how we resolve this issue. Unfortunately, we 
have not seen much fluctuation with respect to public opinion 
on this issue.
    Ms. Spanberger. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Sherman. Thank you. I will now recognize myself for 5 
minutes since I have not asked questions yet, then we will go 
on to Mr. Lowenthal, and then we will do a second round for 
whoever is still here.
    Ms. Nguyen, you mentioned, I believe, that your children 
and you have not been able to have direct contact with Michael. 
Is that true and have you asked the Vietnamese Government for 
an opportunity to speak with your husband by phone or visit 
him?
    Ms. Nguyen. That is correct. We have not had any access to 
phone or receive any letter from Michael. We only have U.S. 
consulate, visit him and deliver messages from us to him and 
they delivered messages back to us from him also. Otherwise, 
like no direct contact. We did requited, but they asked us to 
be present, at the detention center so we can be able to talk 
to him, but not through the phone or have him write anything to 
send out.
    Mr. Sherman. So he is not allowed to write you a letter?
    Ms. Nguyen. No.
    Mr. Sherman. And they will not allow you to talk by phone, 
and an in-person meeting would then subject whoever goes to 
Vietnam to the same justice system your husband was subject to. 
Would you fear for your safety if you went to Vietnam at this 
time?
    Ms. Nguyen. Correct. At that time, I did not have the fear 
because of my medical missions. And now is like seeing my 
husband detained like that, I am fearful for myself because 
already got detained and I am going to get detained too, then 
who is going to take care of my children?
    Mr. Sherman. Yes, this--obviously, international standards 
would require first that you be allowed to talk to your husband 
by phone, that your children be allowed to talk to your husband 
by phone, and that perhaps you be given some form of diplomatic 
immunity so that you would be beyond the reach of Vietnamese 
law so that you could visit your husband. Of course, this would 
all be unnecessary if your husband was released.
    Can you describe the impact on you and your kids that you 
cannot even talk to your husband by phone?
    Ms. Nguyen. My four daughters, they are very close to 
Michael. He daily taking care of them, and actually, let me 
describe him. He is a Mr. Mom. I cannot even act as the role he 
was in at this time. He had been acting for two roles, Mom and 
Dad, and I cannot even imitate that from him.
    So the kids are very devastated, frustrations, scare, 
frightened, loss of sleep. Their grades have been declining 
from straight A student to a C student, from a AP honor class 
to a regular class now. They cannot focus and that is very 
extremely hard on them.
    Mr. Sherman. Well, let us hope that the Vietnamese 
Government understands the importance to the United States of 
treating Michael fairly according to human law and due process. 
And I would assume that the Vietnamese foreign policy 
establishment understands the importance of the United States 
to Vietnam and its future.
    With that let me turn briefly to Cambodia and Ms. Enos. 
There was a positive event with the Cambodian Government last 
December where they sounded positive about Radio Free Asia, but 
in this subcommittee in the past I have raised concern about 
two Radio Free Asia journalists who were arrested in Cambodia 
in 2017. Their trial begins, or has begun this week.
    Can you comment about Cambodia's suppression of civil 
society and media freedoms with reference to these two 
reporters from Radio Free Asia?
    Ms. Enos. Yes. I think we have been seeing a steady decline 
in terms of democratic freedoms there. I think today it is 
pretty difficult to call Cambodia a democracy, especially given 
the sham of the elections. And I think that one of the ways 
that they have--that Hun Sen has continued to undermine 
democracy there has been essentially by eliminating the space 
for civil society to act. This is anywhere from human rights 
groups that are trying to fight human trafficking to, as you 
mentioned, the Radio Free Asia journalists. The Cambodia Daily 
was shut down for a time. There has been a systematic assault 
on press freedom there and on the activities of civil society 
members.
    Mr. Sherman. Thank you. In the second round I will ask 
questions about Burma/Myanmar and the Philippines. And with 
that I will yield to the gentleman from California, Mr. 
Lowenthal.
    Mr. Lowenthal. Thank you, Chairman Sherman, for inviting me 
to participate in this hearing on human rights issues in 
Southeast Asia. I am the co-chair of the congressional Vietnam 
Caucus. You know, I have been advocating since my time in 
Congress now, this is my fourth term, on the issue of human 
rights abuses in Vietnam. I have adopted several. I am a member 
of the Tom Lantos. I am part of the executive committee at the 
Human Rights Commission. I have adopted several prisoners of 
conscience. Fortunately, three of them have been released. But 
the fourth is the most venerable Thich Quang Do, who is the 
supreme patriarch of the Unified Buddhist Church, and it's a 
horror that he has been under arrest. He is in his early 90's. 
He is a spiritual leader. He has no danger to the government 
and yet the government's attempt to quash religious freedom and 
he is in the center of all of that.
    But I want to talk about to Helen, to Helen Nguyen, first, 
I want to preface this, the questions, by saying that for 
Representative Porter from your district--I do not know if she 
has been here--for my dear friend Representative Correa, 
Representative Green from Houston, my dear friend 
Representative Yoho, we as a group, and Representative Sherman, 
but we almost every week or every other week we have been on 
calls with the Ambassador or the consul general, what is going 
in Vietnam. This has been a very bad year and a half as we know 
what is going on.
    First, in terms of American citizens who have been 
arrested, Will Nguyen was arrested as we know right after the 
demonstrations in June 2018, graduate student, was convicted. 
Fortunately, shortly after that was deported to the United 
States. Michael Nguyen, a wonderful resident of Southern 
California from Ms. Porter's, Representative Porter's district, 
was just traveling on a bus, had been visiting Vietnam over the 
years many times visiting friends and family. Was on a bus, I 
believe, from Da Nang going to Saigon. Was dragged off that 
bus, was arrested.
    Vietnamese broke every covenant. They were supposed to tell 
us within 96 hours that there was an arrest. They waited 10 
days. They did not for almost a year. That was in June 2018 
until 2019, they did not really inform the U.S. embassy, the 
State Department, Helen, Members of Congress, just what the 
charges were. We did not know. We received very little contact 
during this process, a horrible process. He was then sentenced 
to 12 years in prison.
    We do not know for what and why this happened, except to 
say that the Vietnamese Government is cracking down--the word 
cracking makes it sound like there is a problem. There is not 
for people going--Americans or anybody speaking out, any public 
dissent, any issue you are being arrested in Vietnam it is 
very, very difficult and bad time.
    And it is outrageous that Americans who have a Vietnamese 
background are now becoming frightened to go back to their 
country of their ancestors. This is unacceptable. And I join 
with my colleagues in supporting Chris Smith, Representative 
Smith's Vietnam Human Rights Act which invokes sanctions per 
the Magnitsky Act. And it imposes both financial and travel 
restrictions on human rights abusers. We also believe that 
Vietnam, and as an example of what is going on here should also 
be not allowed--oh, should be put back as a country of 
particular concern again because of the issues of going on.
    I do not have a lot of time left. I just want to say, ask 
Helen who--just how--were you satisfied with the legal 
assistance that Michael received? How did he find out about it? 
I am very interested. Here, for a year, we heard nothing about 
why he was being charged, who would help him. I think at the 
very end, he--I am not quite sure I understand the process by 
who is lawyers were. So if you could just illuminate that 
because I cannot imagine being in a country, a foreign country 
and not having access to support services and legal services.
    Ms. Nguyen. So when Michael's detention in Vietnam, he not 
allowed to have any lawyers to represent him until 2 weeks 
before the verdict they allow him to have lawyer. But when we 
search around for the lawyer, no one would want to take his 
case is because they fear for their business. They fear for 
their family, so we gave up. So the State appointed the lawyer 
for him, to represent Michael.
    Mr. Lowenthal. Were you satisfied with the representation 
you received?
    Ms. Nguyen. Well, I was not there to be able to tell, so I 
cannot say am I satisfied with the verdict or the trial or the 
lawyer, because I was not be able to attend.
    Mr. Lowenthal. Well, I just want to send my support to you, 
to your family, to tell you we are not going to give up. As I 
mentioned, Will Nguyen, for the example of it was only after he 
was convicted that we were able to get the government to deport 
him. We are going to do the same thing and keep fighting for 
Michael.
    Ms. Nguyen. Thank you.
    Mr. Lowenthal. And with that I yield back.
    Mr. Sherman. Thank you. At this point I will recognize a 
member of the full committee, Mr. Connolly, and then I see the 
gentleman from California.
    Mr. Connolly. I thank the chairman and welcome to the 
panel. Ms. Enos, do you believe human rights is an important 
part of U.S. foreign policy?
    Ms. Enos. Yes.
    Mr. Connolly. Do you believe the United States should 
advocate for human rights when it can?
    Ms. Enos. Yes.
    Mr. Connolly. Should we try to be consistent in that 
advocacy?
    Ms. Enos. Absolutely.
    Mr. Connolly. Do you believe that the head of State, the 
President, can make a vital difference in that advocacy when he 
uses the bully pulpit of the presidency either overseas or from 
the Oval Office for that matter with respect to human rights?
    Ms. Enos. I think that the President should be a vocal 
advocate for human rights. I agree.
    Mr. Connolly. And conversely, when the President does not, 
does not take advantage of that opportunity for advocacy, could 
it do harm? Could it set back the cause of human rights?
    Ms. Enos. I think that the entire U.S. Government needs to 
devote significant attention toward highlighting the severe 
human rights violations.
    Mr. Connolly. I agree, but my question had to do with the 
head of State----
    Ms. Enos. Yes, the President----
    Mr. Connolly [continuing]. Because he or she has a unique 
role. Thank you. I really appreciate that.
    Mr. Bencosme, am I pronouncing that right?
    Mr. Bencosme. Bencosme.
    Mr. Connolly. Bencosme, sorry. You were talking earlier 
when I was here, and I had to run to a markup so forgive me for 
having to run out, about the Philippines. Has the President of 
the United States, you know, Ms. Enos and I agree that the 
President has a bully pulpit; it is unique. Human rights is a 
very important part of U.S. policy and the President has a 
particularly, a unique role in advocacy with respect to human--
he can make a big difference, or not. Has he made a big 
difference in the Philippines?
    Mr. Bencosme. He has made concerning comments with respect 
to how drug offenders should be treated, which I think are not 
in line with international human rights standards, so.
    Mr. Connolly. Who has?
    Mr. Bencosme. The President of the United States.
    Mr. Connolly. So, correct me if I am wrong. The President 
of the Philippines, Mr. Duterte, has explicitly embraced 
vigilantism in the Philippines; is that correct?
    Mr. Bencosme. Correct.
    Mr. Connolly. And as a result, thousands of people have, in 
fact, been murdered either at the hands of vigilantes or 
sanctioned police groups in the Philippines allegedly for drug 
dealing; is that correct?
    Mr. Bencosme. Correct.
    Mr. Connolly. Without due process of law?
    Mr. Bencosme. Correct.
    Mr. Connolly. Without going to a court?
    Mr. Bencosme. Correct.
    Mr. Connolly. Without even being arrested and detained----
    Mr. Bencosme. Correct.
    Mr. Connolly [continuing]. And charged. By the way, is that 
the system we have here in the United States?
    Mr. Bencosme. No.
    Mr. Connolly. Is that a system you think we ought to be 
advocating for?
    Mr. Bencosme. No.
    Mr. Connolly. So would you say that that is a good example 
of a human rights issues that is pretty important?
    Mr. Bencosme. Certainly the President should be, you know, 
using our own system and the laws and judicial system in place 
and use that as a model of what should happen.
    Mr. Connolly. And I want to go back to what your statement 
earlier now to put that in context. And so, certainly, 
President Trump spoke out about this terrible situation in the 
Philippines in blatant violation of the rule of law, 
international law, human rights, and has spoken out against it 
and tried to tell President Duterte we do not support that kind 
of behavior; is that correct?
    Mr. Bencosme. To this day, we have not seen any public 
comments from----
    Mr. Connolly. We have not seen it. Would it be fair, again 
keeping in light of the sort of philosophical framework Ms. 
Enos and I established, would it be fair to say that by not 
speaking out, in fact, it sadly encouraged Duterte and his 
vigilantes to persist if not expand their illegal activities 
and their gross violations of human rights in this respect?
    Mr. Bencosme. Every time that we do not speak out on the 
issue, it green lights other abusers to continue to act with 
impunity.
    Mr. Connolly. So with impunity. So the President went to 
Hanoi; is that correct?
    Mr. Bencosme. Correct.
    Mr. Connolly. Certainly he used that occasion to speak out 
about human rights violations such as Michael and lots of 
others. In fact, 128 prisoners of conscience identified by your 
organization in Vietnam increased by a third since last year, 
and that number has grown because of a social media crackdown 
by the Government of Vietnam; is that correct?
    Mr. Bencosme. Correct.
    Mr. Connolly. So, certainly, the President used the 
occasion of visiting Hanoi to speak out about that?
    Mr. Bencosme. We have not seen any public comments about 
the detention of prisoners of conscience or other----
    Mr. Connolly. You are kidding. The President did not speak 
out about that.
    Ms. Nguyen, you are shaking your head. Did you want to 
comment?
    Ms. Nguyen. I agree with Francisco. I have not heard or 
seen, our President speak out about, human rights while we was 
in at the summit.
    Mr. Connolly. Mr. Chairman, my time is up. But I do want to 
simply say I believe, and I am very grateful for Ms. Enos's 
answers, I believe human rights is a cardinal, foundational 
part of American foreign policy and has been since the founding 
of this republic. We have not always been consistent, but we 
aspire to something and the world looks to us for that advocacy 
when people do not otherwise have surcease, they do not have 
succor, they do not have a remedy.
    But when the United States speaks it carries weight, even 
with dictators. And when we choose to be silent or turn another 
eye in a different direction, there are victims, real victims, 
human beings who are going to suffer, and that is wrong. Thank 
you, Mr. Chairman.
    Mr. Sherman. Thank you, Mr. Connolly. And I will comment 
that the most eloquent speeches for human rights are those that 
can be silent but have a real economic effect or geostrategic 
effect. And when I do the second round, we will focus on 
actions the United States can take to push the Philippines, 
push Cambodia, and especially push Myanmar/Burma in the right 
direction. With that we will recognize the gentleman from 
California.
    Mr. Correa. Thank you, Chairman Sherman and Rep. Yoho for 
your invitation to be here today. I want to say it has been an 
honor to represent in my time as an elected official, Little 
Saigon, the largest concentration of Vietnamese outside of the 
country of Vietnam, in Orange County.
    And the issue of human rights, religious freedoms is a 
struggle that continues to be a challenge. Sadly, we have seen 
the Government of Vietnam crack down--and I use the word crack 
down--on human rights, religious freedoms by arresting not only 
American citizens but Vietnamese citizens as well.
    And, Ms. Helen Nguyen, thank you for being here today. We 
all stand with you shoulder to shoulder as we fight for 
Michael's release, an American citizen whose crime I am still 
not sure what it was that got him 12 years in prison.
    And I am trying to understand the Government of Vietnam and 
their rationale, because a few years ago, my chief of staff 
Tammy Tran went to Vietnam, and I do not think she committed 
any crime yet. After 2 days there she was arrested and then 
deported. And her crime, I believe, was being my chief of staff 
and her activities in my office in terms of speaking out human 
rights, religious freedom.
    I am trying to, as Chairman Sherman said, I am trying to 
figure out how we communicate not only to Vietnam but other 
countries around the world that if America stands for anything 
we stand for human rights, religious freedom, our first 
amendment freedom of speech, and that there may be consequences 
for doing this. We will continue to fight for Michael's 
freedom, yet as my colleague Mr. Lowenthal said, there have to 
be consequences. We will watch, but we will not watch patiently 
and silently. We will continue to be active.
    Remind the Government of Vietnam that there may be some 
consequences. Trade continues to grow with Vietnam. Our 
military ties continue to grow with Vietnam. Yet, I would pull 
back and tell my colleagues in Washington we have to take a 
pause at what cost. TPP may be back on the table someday, but 
we have to also precondition our relationships on basic 
respects for humans, human beings, human rights, religious 
freedom.
    Countries of particular concern, that category, I think we 
have to look at that not as a threat, but really to look at 
other countries and say there is a certain level of behavior we 
are expecting of you as we continue to do trade with you, we 
continue to work with you militarily.
    And, Helen, we will continue to work together. You are not 
forgotten. Michael is not forgotten. And as I think about when 
you got your legal help, when you got your attorneys, I am 
reminded that maybe there is a different legal system in 
Vietnam and other countries that do not respect due process the 
way we know due process to be. I would ask you to comment. 
Thank you.
    Ms. Nguyen. I left Vietnam when I was young, so I do not 
know their legal system over there. So what happened to my 
husband, I realize that there is no due process over there. And 
that is, we take advantage of what we have here, we do not 
value it. When it comes to this situation that is when we 
realize due process that we have here, we should value it.
    Mr. Correa. And I would say that that is what I suspect to 
be the case. I know the case. Again, the American citizens of 
Vietnamese heritage that have had challenges in Vietnam are 
essentially those that have essentially expressed themselves, 
their freedom of speech, and that has caused them in many cases 
their freedom.
    We will continue to watch. We will continue to monitor. And 
I would ask the Government of Vietnam, work with us. We are 
watching and we are not forgetting.
    Mr. Chairman.
    Ms. Nguyen. Thank you.
    Mr. Sherman. Thank you. And I will point out the Government 
of Vietnam puts a substantial effort into trying to encourage 
Americans to go visit Vietnam and be tourists and spend money. 
And they should be aware that Americans are also watching this 
hearing, that Americans turn to the State Department for advice 
on where they will be safe and happy on their vacations and I 
am not sure that we can provide that kind of assurance at this 
point to those seeking sunny beaches and interesting historical 
sites. With that I recognize the gentleman from Texas who is 
not a member of the committee but is very involved in this 
matter.
    Mr. Green. I thank you, Mr. Chairman. I thank the ranking 
member, and I greatly appreciate your allowing me to interlope 
today and have an opportunity to give my expressions to Mrs. 
Nguyen for her courage, for her ability to simply continue to 
hold onto the hope necessary to see her through what are 
exceedingly difficult, uncomfortable, and unimaginable times.
    Ms. Nguyen, I am so honored that you have this photograph 
of your family. My hope is that it has been picked up by our 
television cameras. If it has not, I would gladly have it moved 
such that it can be. But my hope is that it has been. I see 
that you have your youngest child there with you. How old is 
this child, please, Ms. Nguyen?
    Ms. Nguyen. As now she is nine, but when her dad was gone 
she was 8 years old.
    Mr. Green. She was eight then and she will be nine. So if 
your husband, her father, if he is gone for 12 years, he will 
miss her high school graduation. He will miss 12 birthdays. 
What we have to do is not allow Mr. Nguyen to become a number. 
He is a person. He has family. He has roots. He cannot be a 
number. We refuse to allow him to be just another person who 
has been caught up in a system. If he is away for 12 years, my 
suspicion is that one of your children will probably marry. He 
will not be there to present his daughter's hand in marriage as 
we traditionally do in this country.
    It would not surprise me to know that the Nguyen family 
will grow over these 12 years. He will not be there to see his 
first grandchild come into the world, the baby take the first 
step. He will not be there to congratulate children as they 
move on in life, they acquire jobs, and they acquire lives for 
themselves outside of the home. He will miss some of the most 
important times in the lives of his family.
    So my appeal, Mrs. Nguyen, is to the Government of Vietnam, 
to understand that a man who has no criminal record, a person 
of faith, a person who has been a model citizen in this country 
where we have laws, a person who has for the most part done the 
things that we would want a person to do to make the world a 
better place, that this man is not a number but he is somebody 
special to us and we want him back. He is ours. He belongs to 
us. We want him back.
    Ms. Nguyen. Yes, we want him.
    Mr. Green. And we will not give up. We will not give up on 
bringing Mr. Nguyen home. We may not bring him home tomorrow, 
but we will not give up on bringing Mr. Nguyen home. He has 
been a model citizen, and it is difficult for us to believe 
that he would somehow become Mr. Hyde, metamorphosis from the 
Dr. Jekyll to a Mr. Hyde character and do all of these things 
that are alleged. It is difficult for us to believe it. We just 
do not see that happening in the human being, generally 
speaking.
    Itdoes not matter where you are from. Model citizens do not 
just wake up one morning and decide they are going to try to 
overthrow a government. It justdoes not happen. We want him 
back. And I want you to know this, I am going to be with you 
until he returns. I thank you for allowing me to say a word to 
you and to others today. And if you have a response, I would 
yield the rest of my time.
    Ms. Nguyen. Thank you, Congressman, for advocating for 
Michael and my family.
    Mr. Green. Thank you. I yield back, Mr. Chairman.
    Mr. Sherman. I know that the Foreign Ministry of Vietnam is 
watching. I hope they are listening. And I cannot imagine that 
they could hear it with any greater emphasis or eloquence than 
we just heard from the gentleman from Texas.
    With that, Mr. Bencosme, I would like to ask some questions 
about the Philippines. Duterte says that his extrajudicial 
killings are just of drug dealers. But, that of course would be 
bad enough because he will brand as a drug dealer anybody he 
wants to brand as a drug dealer--and, oh, by the way, the way 
to deal with drug dealers even if they are drug dealers is not 
through extrajudicial killing. But he is also killing people in 
indigenous groups. Can you describe the extrajudicial killings 
that are visited on these people?
    Mr. Bencosme. Absolutely. It is part of a larger sort of 
crackdown that we are seeing against human rights defenders in 
the country. The way the Philippine Government acts is that it 
red tags them, legitimate organizations, or brands them as 
things like Communist fronts which had led to an increase of 
harassment and attacks by unknown individuals against them.
    And so, one of the stark, you know, findings is that, that 
I mentioned in my oral statement is that even as of yesterday 
we have heard of Karapatan members who, human rights lawyers 
who are being killed, you know, even as recently as this week. 
And so, what we are seeing is indigenous people who are--who 
have an obligation under, you know, under international human 
rights law to be defended to have their universal human rights 
being violated by this government.
    Mr. Sherman. Then we have the case of Maria Ressa. Duterte 
will accuse almost anyone of being a drug dealer. He has 
accused her of speaking libel. One of the hallmarks of an 
antidemocratic government is when they criminalize speech. 
Libel here is only, in our law is only a civil matter. I know 
some of the most prominent human rights lawyers in the world 
are focused on this case. This is the journalist who created 
the very popular news website Rappler. Can you tell us about 
the case, where it stands, and on what basis, I mean how 
blatant is this just an attack on the media?
    Mr. Bencosme. There is no basis for any of the charges 
levied against Rappler and particularly Maria Ressa. I think up 
to at least eight different charges have been placed on Maria 
Ressa. It is very clear that it is, in part, a retribution or 
reprisal because of the really fantastic investigative 
reporting that Rappler has done on Duterte's so-called war on 
drugs and it is, in part, with a larger crackdown on free 
expression in the country.
    Mr. Sherman. Thank you.
    Ms. Huang, focusing on Myanmar, today as I understand it 
there are still half a million Rohingya inside the borders of 
Burma/Myanmar who have not yet fled. What can we do to assist 
and protect these people and do you expect the Government of 
Myanmar/Burma to try to ethnically cleanse them as well?
    Ms. Huang. Yes. And I want to start by emphasizing the dire 
conditions that this half a million people live in. Just 
yesterday, I was reading reports that there are some credible 
assessments that show that on former Rohingya villages the 
military is building bases. You know, so if you want to talk 
about how systematic, planned, you know, both looking into the 
past and looking into the future, this situation, the dire 
situation is, it is, as I mentioned earlier----
    Mr. Sherman. So they are building bases on empty villages 
or on villages that are still inhabited?
    Ms. Huang. Villages that have been razed by the military.
    Mr. Sherman. Got you. So first they used genocide and 
ethnic cleansing against the people, then they burn the 
village, then they build something where the village used to 
be.
    Ms. Huang. Yes. And in terms of how we can push for greater 
protections of these people, I think we spoke earlier about the 
need to increase access of various organizations to make sure 
that the aid is being provided according to international 
standards, and that is really important. And I think the main 
set of actions are around accountability and justice, so 
whether it is State Department determination, increased 
sanctions, referral to the ICC.
    And I want to highlight, we have not spoken at length about 
the advisory commission that was led by the late Kofi Annan, 
which came up with a very comprehensive plan about what needs 
to happen in Rakhine so that people can achieve----
    Mr. Sherman. I want to go to just one other question and 
that is----
    Ms. Huang. Yes.
    Mr. Sherman. I am sure that the leadership of the Rohingya 
appreciates our efforts. They are far more significant than any 
other country in the world, far more significant than the 
Islamic Conference which is over 20 countries. What could the 
Rohingya do and what leader speaks for them that would be 
eloquent to explain to the Islamic Conference China's role in 
enabling this genocide?
    Ms. Huang. You raise a really important point about the 
need for Rohingya to be given a platform. And examples like 
Mohib Ullah who was invited to the Ministerial for Religious 
Freedom last week, that is a great example of someone who----
    Mr. Sherman. I am sure that they will speak against Burma/
Myanmar. I am sure they will speak for their people. But they 
will not have an effect nor will they be suitably recognizing 
our efforts unless they point the finger at Beijing. And it is 
very convenient. I have had Muslim leaders tell me do not talk 
about the Uyghurs, Pakistan needs that Chinese money. We do not 
want to talk about the Uyghurs. And then they go back and talk 
about how they are protecting Muslims around the world.
    What do we do to make sure that the Rohingya effectively 
communicate the enabling role of China?
    Ms. Huang. I agree that the OIC can do more. They have 
taken some actions, but I think that what we have talked about 
in terms of a sustained, international diplomatic campaign to 
continue pressing these messages are what is needed.
    And one last point on, you know, we have also not heard 
President Trump make a statement on the Rohingya situation, the 
crisis, and that is something that shows that there is a gap 
between what we can do and what is being done currently.
    Mr. Sherman. Obviously. And I think Mr. Connolly was 
eloquent how this President needs to speak more. We want all of 
our Presidents to speak more about human rights.
    But I will ask also Ms. Enos, is there anything that can be 
done in conjunction with the Rohingya leadership so that the 
Muslim world understands what China is doing here?
    Ms. Enos. I have written before in a column that I write 
bimonthly for Forbes that I think that there should be a 
formation of a coalition of the willing led principally by the 
U.S. that includes Islamic voices in strongly issuing 
condemnations for what took place there. And I think we need to 
be frank about it, it was genocide. So.
    Mr. Sherman. With that I will recognize the ranking member 
for whatever questions he has for this our second round.
    Mr. Yoho. Well, I have got many questions, but I have a 
statement I have to make. I have to say something about Mr. 
Connolly. I appreciate his passion. I mean it is very evident 
he did not vote for this President and hedoes not like this 
President. But to accuse him of not standing up for human 
rights I think is wrong. We do not know what was said in those 
meetings. You do not know what was said privately.
    He did not go to Vietnam to talk about human rights. It was 
about North Korea, and I think we need to keep that clear. I 
think this just clouds it and this is part of the problem with 
Washington, DC. It is a great political fight and we can put it 
on TV for our next campaign ad, and that is stuff that makes me 
sick about this place.
    We have to have solutions to these problems and it comes 
with policy. That is why I feel this committee is the most 
important committee on the Hill, because if our foreign 
policies are right, we have good national security, we have 
good trade, we have good economic policies. And until we come 
together on a common cause, you are going to see this circus.
    Mr. Sherman brought up a great point about if things like 
this happen in Vietnam or as Mr.--what was his last name, from 
California?
    Mr. Sherman. Correa.
    Mr. Yoho. Correa. If his chief of staff was in Vietnam and 
they feel she got picked up because she was the chief of staff 
for a Member of Congress, that is going to affect the future 
relationship of that country or any country that does the same 
thing with the United States of America. And we value our 
partnership with Vietnam now. I mean they are a counter to 
China. They are our 17th largest trading partner.
    We disagree maybe on forms of government. We probably 
disagree on the human rights issue. I do not think they are 
totally void, but they are not going in the direction that we 
want to see. And this goes back to what I said previously, our 
policies should be tiered, tier 1, 2, 3 is what I propose. Tier 
1 countries, we are a hundred percent in alignment. They get 
the best trade deals. I would recommend free trade agreements. 
Tier 2, they do not get quite so good. Tier 3, very little. If 
you are below that you do not trade with the United States or 
other like-minded countries. Until we change these things, you 
are going to have despotic leaders.
    Burma, right now, last--I think it was 2016, they are our 
107th trading partner. We did over three-quarters of a billion 
dollars in trade with them. This year, already, we are almost 
at--at the end of May we are about $500 million in trade with 
them. The biggest port is in California. So we are all against 
human rights abuses, but yet we keep trading because we do not 
want to lose the money.
    I think it is time we put our values above our pocketbook 
and send a signal to these countries we are not excluding them 
from trade, we are just saying we have a higher standard. That 
if we put that standard, if they want to trade with the United 
States, a country that has the rule of law that honors 
contracts, they come to our side without us saying you have to 
do these things.
    And I think that has been a misdirection of our foreign 
policy over the last 30 years. You have to do these things. 
They agree to it. We trade with them because it is written in a 
paper that we are doing these things, but we know darn well 
they are not doing them but we keep trading them, but the paper 
says we are doing it and they are supposed to. And then when it 
is brought to our attention we are like, ``Oh well, son of a 
gun. Please do better on your human rights.''
    You brought up the rhetoric. One of you brought up the 
rhetoric. I think it was you, brought up the rhetoric is spoken 
but the actions aren't there. I think it is time we put the 
actions. If we truly believe in that--and of course some people 
say, ``Well, that is an isolationist policy.'' Yes, it could 
be. But I think it sends a strong message, you either do 
business with the people that believe in what you believe in or 
stop doing business. I mean we can go around the world and see 
all these despotic leaders from Nicaragua to wherever.
    Anyways, my question is you had brought up China's effect 
in Cambodia, China's effect in Burma. What are they doing that 
are suppressing the human rights? Is it their facial 
recognition and the CCTV cameras that are grading citizens and 
living out the 1984 George Orwell's book, or big government is 
watching?
    Ms. Enos. I think one of the big concerns with China's Belt 
and Road Initiative is not only that they will export, you 
know, various forms of investment, but that they will export 
authoritarianism on a whole. And I think one of the potential 
concerns of this, of course, is the use of the facial 
recognition technology and what not. I am not aware of 
particular instances in either Cambodia or Burma where this 
technology has already been exported, but I think that the 
potential for that is extraordinarily strong.
    And I think that we should look at the case of the Uyghurs 
in Xinjiang----
    Mr. Yoho. Sure.
    Ms. Enos [continuing]. As a, you know, foretaste of what 
could be to come, because there is a lot of incentives for, you 
know, bad actors like the Burmese military to misuse this 
technology for their own ends.
    Mr. Yoho. It really is. And that is where we are going. And 
my good colleague here, you know, China--he had a good phrase 
and I want to use it here. But China is offering their form of 
socialism with Chinese characteristics, but what it really 
comes down to is dictatorship with Chinese characteristics, 
because that is really what is being offered. So it gives these 
countries and their leaders the power to control their citizens 
so that they fall in line.
    They have given it to Maduro. That is why you have seen 
over five million people leave in Latin America. He is purging 
his country. He is going to have people that aren't willing to 
fight or they believe in what he says and the problem is solved 
for him. And it is a breakdown of democracies in the Western 
Hemisphere, but this is going on around the world, and the Asia 
Pacific is probably the most significant area because there is 
going to be more people living in that Asia Pacific region by 
the year 2050 in the world than outside of that region.
    And so, what kind of a future we want and that is why we 
need to change our foreign policies to direct--put us in a 
direction to get the results that we want that we know empower 
the individual to pursue life, liberty, and the pursuit of 
happiness on their terms. But you cannot do that with a 
despotic regime.
    Mr. Chairman, thank you for allowing me to bloviate, I 
guess. Thank you.
    Mr. Sherman. Always good to hear you.
    I will point out that the jurisdiction of this 
subcommittee, South Asia, East Asia, and the Pacific already 
has over half the population of the world. And I will pose one 
question just for the record on Burma/Myanmar, and that is I 
would like people to review all the sanctions we had before 
Aung San Suu Kyi got back there and opine on which should be 
reimposed now until such time as the Rohingya are given 
citizenship documents.
    These include GSP, a general ban on imports from Burma, the 
specific bans on jadeite and rubies and products containing 
those gemstones, a ban on certain Burmese companies, the 
freezing of assets of certain nationals--we have done that to 
some degree--the prohibition of financial services to certain 
nationals, restrictions on investment, and especially 
restrictions on U.S. support for multilateral assistance.
    So take a look at what we were doing then and tell me which 
of those things we should do now. With that I want to thank the 
witnesses. This hearing has been longer than most, but we have 
dealt with many important topics. And I especially want to 
thank Helen Nguyen for being here. Thank you. We are done.
    [Whereupon, at 12:11 p.m., the subcommittee was adjourned.]

                      APPENDIX
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]            
            

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             



                                 <all>
</pre></body></html>
